 




                              Testimony of

                  The Honorable Todd J. Zinser 

                          Inspector General 


                     U.S. Department of Commerce


                         before a hearing of the

                    Committee on Appropriations 

    Subcommittee on Commerce, Justice, Science, and Related Agencies 

                           U.S. Senate 


    The Department of Commerce's Fiscal Year 2015 Budget Request


                             April 10, 2014




                                    0
 


Chairwoman Mikulski, Ranking Member Shelby, and Members of the Subcommittee:

I appreciate the opportunity to provide testimony today as you consider upcoming
appropriations for the Department of Commerce. The President’s fiscal year (FY) 2015 budget
requests $12.2 billion for the Department, including $3.4 billion for U.S. Patent and Trademark
Office (USPTO) user-fee financing. The Department plays a pivotal role in implementing the
President’s initiatives for economic recovery and job creation—and, like other federal agencies,
faces significant challenges in the upcoming year.

We addressed these areas in our recent Top Management Challenges (TMC) report,1 which we
prepare annually as required by the Reports Consolidation Act of 2000.2 Our TMC reports in
depth what we consider, from our oversight perspective, to be the most significant
management and performance challenges facing the Department:

       Challenge 1. Strengthen Commerce infrastructure to support the nation’s economic growth
       Challenge 2. Strengthen oversight of National Oceanic and Atmospheric Administration
       (NOAA) programs to mitigate potential satellite coverage gaps, address control weaknesses
       in accounting for satellites, and enhance fisheries management
       Challenge 3. Continue enhancing cybersecurity and management of information technology
       investments
       Challenge 4. Exercise strong project management controls over 2020 Census planning to
       contain costs
       Challenge 5. Continue to foster a culture of management accountability to ensure
       responsible spending

Today I will summarize several challenges facing the Department, based on recent and ongoing
audits, evaluations, and investigations. Recently, the Secretary and Departmental leadership
published a strategic plan for fiscal years (FYs) 2014–2018. We consider the plan a significant
achievement in establishing a framework for the diverse missions of the Department and its
organizational units. The plan established 5 strategic goals: trade and investment,
innovation, data, environment, and operational excellence. Much of our work addresses
the goal of “operational excellence,” which will be the focus of our testimony.


Addressing Issues with National Oceanic and Atmospheric
Administration (NOAA) Weather Satellite Programs
The Department must actively manage risks associated with the acquisition and development of
the next generation of NOAA environmental satellites, as they are its largest investments at
more than 20 percent of its $8.8 billion budget request. The Joint Polar Satellite System (JPSS)
program’s challenge is to keep JPSS-1 development on track to meet its second quarter
                                                            
1
  U.S. Department of Commerce Office of Inspector General, November 25, 2013. Top Management Challenges

Facing the Department of Commerce, OIG-14-002. Washington, DC: DOC OIG.

2
  31 U.S.C. § 3516(d).



                                                               1

 


FY 2017 launch schedule—while taking steps to mitigate a potential data gap in the afternoon
polar orbit, as well as implementing NOAA’s Independent Review Team recommendations to
make the constellation more robust. The Department must also ensure that the Geostationary
Operational Environmental Satellite-R Series (GOES-R) program continues to meet
requirements within its long-standing cost and schedule baselines for a launch readiness date of
October 2015 for the first satellite.

Of note, NOAA has improved its communication with stakeholders, as well as the efficacy of
satellite program leadership and staffing, and developed a comprehensive polar satellite data gap
mitigation plan.

Mitigating Potential JPSS Coverage Gaps
In its FY 2015 budget submission, NOAA requested $916.3 million for its JPSS program,
reporting that the $95 million increase from the prior year would not change the program’s
life-cycle cost of $11.3 billion through FY 2025. The first JPSS-developed satellite (JPSS-1) is
scheduled for launch no later than the second quarter of FY 2017.

The JPSS program must successfully execute to cost, schedule, and performance baselines
established August 1, 2013. The program must also ensure that flight and ground schedules are
fully integrated for the JPSS-1 mission. NOAA leadership must also ensure the program is able
to effectively manage ongoing development while responding to concerns about the robustness
of program development activities (e.g., the need for spare parts for JPSS-1 and -2 instruments
and spacecraft) and the need for further gap mitigation.

NOAA has begun to mitigate potential degradation to weather forecasting capabilities during
polar-orbit data coverage gaps through the use of supplemental funding it received as part of
the Disaster Relief Appropriations Act, 2013. NOAA should ensure that its gap mitigation plan
is executed before the November 2016 design-life end of Suomi National Polar-orbiting
Partnership (NPP), a risk-reduction satellite launched in October 2011.

Consistent with our September 2012 JPSS audit report,3 we continue to project a potential 10–
16-month gap between Suomi NPP’s end of design life and when JPSS-1 satellite data become
available for operational use. NOAA’s medium-range weather forecasting (3–7 days) could be
degraded during the period of time JPSS data are unavailable, but NOAA must do more
research using past and current weather events to determine the extent to which forecasts
may be affected.

In March 2014, we learned that the JPSS program had revised its projections for a coverage gap
between Suomi NPP and JPSS-1. During 2013, the program analyzed the expected reliability of
Suomi NPP and concluded that the potential gap had narrowed to 3 months or less. It also
determined that, should Suomi NPP have an early failure, data or imagery loss would be
partially mitigated by data provided by legacy satellites. Regardless of NOAA’s revised gap
projection, in the long term those legacy satellites can no longer be expected to function,
                                                            
3
 DOC OIG, September 27, 2012. Audit of the Joint Polar Satellite System: Continuing Progress in Establishing
Capabilities, Schedules, and Costs Is Needed, OIG-12-038-A. Washington, DC: DOC OIG.


                                                               2

 


leaving the JPSS constellation as the sole provider of key data from the afternoon polar orbit.
This reinforces the need to make the constellation more robust, as recommended by NOAA’s
independent review team.

Managing GOES-R Program Issues with Launch Readiness and System Development
With four satellites (the -R, -S, -T, and -U series), the GOES-R program is estimated to cost
$10.8 billion over the course of its life cycle. GOES-R, with scope and importance comparable
to JPSS, has experienced development and budgetary challenges that could delay the launch
readiness date of its first satellite from the first to the second quarter of FY 2016.

The GOES-R program must continue to manage its ground system, instrument, and spacecraft
development to meet requirements within its long-standing cost and schedule baselines—and
successfully complete the integration and test phase. In addition, the program must effectively
manage activities between flight and ground projects in a compressed development schedule
environment.

In our 2013 GOES-R audit report,4 we found that schedule slips and a potential reduction in
testing activities have raised concerns about the satellite’s readiness to launch. Funding stability
in FY 2014 and beyond is the program’s top risk; an appropriation amount below the FY 2015
requested level may delay launch. For these reasons, one of our recommendations was that
NOAA implement a comprehensive plan to mitigate the risk of potential launch delays and
communicate to users (e.g., in the National Weather Service and Department of Defense) and
other stakeholders (e.g., the Administration, Congress) the changes that may be necessary to
maintain GOES-R’s launch readiness date of 2015.

In a March 2014 memorandum5 to the NOAA Administrator, we shared our initial audit
observations on the GOES-R core ground system development and made critical observations
about the performance of NOAA and its contractor. We observed (1) poor planning
assumptions, (2) inability to execute the first re-plan, and (3) inadequate transparency about
progress. Further, we found that NOAA oversight and GOES-R program management did not
sufficiently address problems with the first re-plan that could now lead to increased costs—and
NOAA may have to launch a satellite without all of the core ground system capabilities
implemented. Based on previous performance we believe that, without leadership’s attention,
the core ground system may not meet minimum requirements for launch in October 2015. As
a result, we believe that the Under Secretary of Commerce for Oceans and Atmosphere and
NOAA Administrator should establish periodic discussions with both Departmental and
contractor leadership to ensure the core ground system will meet the October 2015 launch
readiness date.



                                                            
4
 DOC OIG, April 25, 2013. Audit of Geostationary Operational Environmental Satellite-R Series: Comprehensive
Mitigation Approaches, Strong Systems Engineering, and Cost Controls Are Needed to Reduce Risks of Coverage Gaps,
OIG-13-024-A. Washington, DC: DOC OIG.
5
  DOC OIG, March 6, 2014. Interim Memo re: Audit of NOAA's Geostationary Operational Environmental Satellite-R
Series Core Ground System, OIG-14-014-M. Washington, DC: DOC OIG. 


                                                               3

 


Ongoing OIG Investigation
In mid-2013, OIG received an anonymous whistleblower tip about a team-building exercise
conducted by the GOES-R ground segment project staff that was improperly billed to the
government. In our subsequent investigation, we found that 21 government employees and
consultants employed by private companies were invited to attend a group lunch at a local
restaurant, followed by a daytime showing of Star Trek: Into Darkness. Twenty individuals
working on the GOES-R ground project attended the lunch and 18 attended the movie; the
vast majority of participants mischarged the government for participating in these activities. As a
result of our investigation, those participants worked with NOAA to amend their records to
claim personal leave for time spent at the lunch and movie. As a result of our investigative
activities, approximately $3,500 that was mischarged to the government was returned. OIG
suggested that clear written guidance on proper timekeeping be communicated to agency and
contractor staff in advance of any similar work group outings. Commendably, one consultant
made a self-disclosure that more time was spent at the offsite event than determined by the
program office; OIG is currently looking into whether the amount returned is adequate.

For further details, see Appendix A, “Addressing Issues with NOAA Weather Satellite
Programs.”


Managing the Census Bureau’s 2020 Decennial Planning and
Other Census Bureau Issues
The 2020 decennial census, though years away, is a massive undertaking that requires extensive
planning and testing. For 2020, the Census Bureau plans to design and conduct a high-quality
decennial operation that will cost less per household on an inflation-adjusted basis than the
2010 Census. Research and testing for the 2020 Census must be completed early in the decade,
to design a census that will meet Congressionally-mandated deadlines and to succeed at the
task of counting millions of people and housing units. Recent and ongoing OIG reports on the
Census Bureau meeting these challenges concern decennial planning, design decisions, and
integration of schedule and budget.

2020 Census Planning
During our December 2013 evaluation6 of 2020 Census planning efforts to design a 2020
decennial census that costs less per household than the 2010 Census, we noted significant
schedule slippage in the Census Bureau’s key research and testing programs. If continued,
missed deadlines will translate into an untenable continuation of an already expensive design.
According to the Bureau, the cost (in constant dollars) of counting each housing unit in 2010
was $94—and could reach and estimated $148 if the same design is repeated for 2020. Using
the same 2010 design, and assuming no changes in the number of housing units over the next
10 years, the 2020 Census would cost more than $19 billion.

                                                            
6
 DOC OIG, December 3, 2013. 2020 Census Planning: Research Delays and Program Management Challenges
Threaten Design Innovation, OIG-13-003-A. Washington, DC: DOC OIG.


                                                               4

 


2020 Census Design 
To reduce 2020 Census costs, the Bureau is conducting research that focuses on several design
features, such as offering the Internet as a response option, conducting a targeted address
canvassing operation, and using administrative records to follow up on cases of nonresponse.

An ongoing challenge we have identified is the lack of an established schedule. The Census
Bureau revises baselines (i.e., re-baselines), which can mask delays and give the appearance that
schedules are met. For example, major decision points for the 2020 Census have been re-
baselined several times, with original deadlines pushed back from September 2014 to
September 2015 (see figure 1).

            Figure 1. Shifting Deadlines: The 2020 Census Design Decision

                      Original 

                      Deadline: 

                      September                          Current Deadline:
                      2014                                September 2015




                                         Delayed:
                                         May 2015



                   Source: OIG analysis of Census Bureau documents

2020 Census Integrated Schedule and Budget
Last decade, OIG recommended that the Census Bureau integrate cost and schedule activities
to enable managers to better track the status of available funds, as well as forecast impending
underruns and overruns, so that funds can be reallocated promptly. In response, the Bureau
planned to incorporate earned value management, a process that combines measures of a
project’s schedule and cost to forecast performance problems. As of March 2014, the Bureau
had not incorporated earned value management into its activity schedules, limiting its ability to
make decisions based on objective data.

To effectively manage a program of the size, complexity, and cost of the 2020 Census—and
assess the return on investment of research efforts—managers require accurate accounting
records. However, we recently found that many Census Bureau staff stated that they are
charging their time to projects based on budgeted hours rather than actual hours worked.
Inadequate accounting of employees’ actual work, as well as inaccurate project costs, hinder the
Bureau’s ability to assess the return on investment of research efforts. Additionally, these issues
affect the Bureau’s ability to make informed decisions about how to accomplish budget
reductions.

 


                                                    5

 


Ongoing OIG Investigation
OIG is currently reviewing allegations of survey data falsification within the Census Bureau’s
Philadelphia Regional Office. OIG received allegations of data falsification in 2010 related to
activities in this region, which were investigated and subsequently returned to the Census
Bureau in 2011 for appropriate action.

In late 2013, a whistleblower contacted OIG and provided a related but new complaint, which
was also covered in various media outlets. The most recent information we received also
contained new allegations that the Philadelphia Regional Office, through the systemic
falsification of survey data, attempted to manipulate the unemployment report in advance of the
2012 Presidential election. As a result, we opened a new investigation, which reviewed the
allegations from 2010 and also significantly expanded the scope to include new information. We
plan to release our public report in 2014.

For further details, see Appendix B, “Managing the Census Bureau’s 2020 Decennial Planning
and Other Census Bureau Issues.”


Enhancing Departmental Cybersecurity
To deal successfully with cyber threats, the Department needs to establish a robust incident
response capability, specifically within the Department of Commerce Computer Incident
Response Team (DOC CIRT). In addition, the Department must deploy a sustainable
implementation of its three enterprise-wide cybersecurity initiatives that are underway to
continuously monitor its IT systems, provide cyber security situational awareness, and meet
requirements to optimize and standardize its individual external network connections.

While the Department is making progress in these areas, the challenge the Department faces—
largely because of its highly fragmented operating environment—is to ensure productive
collaboration among all bureaus to effectively improve the Department’s cybersecurity posture.

Enhancing the Department’s Cyber Incident Detection and Response
The Department needs to establish a robust cyber incident response capability, specifically
within DOC CIRT. Furthermore—because DOC CIRT primarily provides incident response
services only to bureaus located at the Department’s Herbert C. Hoover Building
headquarters—ensuring productive collaboration among all bureaus is critical for the
Department to effectively respond to a cyber event.

OIG recently conducted an audit of the incident detection and response capabilities of several
bureaus within the Department. Our audit complemented work already done by the
Department and identified further improvements needed in its incident detection and response
practices. Specifically, we tested Department public-facing Web sites by simulating a cyber event
consisting of prolonged suspicious network traffic that mimics real-world hacking techniques
and cyber attacks. We found that bureaus’ actions in response to our suspicious network
activities may not stop cyber attacks in a timely manner—and are recommending that the


                                                 6

 


Department ensure that bureaus follow NIST guidance to take timely action in response to a
potential cyber attack.

Implementing Enterprise Cybersecurity Initiatives
We noted, in our FY 2014 TMC report, that the Department has three enterprise cybersecurity
initiatives underway to address mandates from the Office of Management and Budget (OMB).
The Enterprise Cybersecurity Monitoring and Operations (ECMO) and Enterprise Security
Oversight Center (ESOC) initiatives support OMB’s mandate7 to continuously monitor
security-related information from across the enterprise. The Trusted Internet Connections
(TIC) initiative supports the mandate8 that federal agencies optimize and standardize their
individual external network connections, including connections to the Internet. Collectively,
these undertakings should significantly improve the Department’s cybersecurity posture.  

Timely implementation of these initiatives is crucial to the Department’s cybersecurity program,
particularly in light of the ever-increasing cyber threats facing government systems. The ECMO
and ESOC initiatives are critical to maintaining cybersecurity best practices to protect network
components, implementing continuous monitoring, and providing timely cyber situational
awareness across the Department. Thus, the Department needs to ensure that current efforts
for these initiatives move forward as planned and that operating units cooperate and participate
to the fullest extent. The Department projects spending, from the FY 2015 working capital
fund, $4.2 million for each of the ECMO and ESOC initiatives (for a total of $8.4 million).

Our recent audit of the Department’s incident detection and response practices included four
bureaus that have complied with the TIC initiative through a Managed Trusted Internet
Protocol Services (MTIPS) provider. We found that these bureaus are not realizing the full
benefits of incident detection and response capabilities provided by MTIPS. The bureaus are not
working with the MTIPS provider to more effectively use MTIPS services to supplement their
security operations center capabilities to fill gaps in monitoring coverage during nonbusiness
hours. Furthermore, only one bureau is exploring opportunities to leverage MTIPS security
services to reduce or eliminate services that are currently handled by the bureau.

Ongoing OIG Work
As part of our annual Federal Information Security Management Act audit work, we are
assessing the effectiveness of NOAA’s IT security program by determining whether key security
measures adequately protect its mission capabilities supported by the National Environmental
Satellite, Data, and Information Service (NESDIS) and the National Weather Service (NWS).
The assessments focus on NESDIS’ Polar-orbiting Operational Environmental Satellites (POES),
Geostationary Operational Environmental Satellites (GOES), Joint Polar Satellites System (JPSS),
                                                            
7
  Executive Office of the President Office of Management and Budget, April 21, 2010. FY 2010 Reporting Instructions
for the Federal Information Security Management Act and Agency Privacy Management, Memorandum M-10-15.
Washington, DC: OMB, 1.
8
  OMB, November 20, 2007. Implementation of Trusted Internet Connections (TIC), Memorandum M-08-05.
Washington, DC: OMB, page 1. Also, see OMB, September 17, 2009. Update on the Trusted Internet Connections
Initiative, Memorandum M-09-32. Washington, DC: OMB, 1.


                                                               7

 


Environmental Satellite Processing Center (ESPC), Search and Rescue Satellite Aided Tracking
(SARSAT), and NWS’ Aviation Weather Center (AWC), Space Weather Prediction Center
(SWPC), Storm Prediction Center (SPC), National Hurricane Center (NHC), and National
Centers for Environmental Prediction (NCEP) Central Operations. We are currently making
recommendations to address weaknesses we found during our assessments.

For further details, see Appendix C, “Enhancing Departmental Cybersecurity.”


Reducing USPTO Backlogs  
Reducing Patent Backlogs
USPTO, as the authority for reviewing and adjudicating all patent and trademark applications,
must continue to focus on issues with the time applicants wait before their patent applications
or appeals are reviewed. Its longstanding challenge has been to reduce backlogs of new patent
applications, Patent Trial and Appeal Board (PTAB) ex parte appeals, and requests for
continued examination (RCEs). As it works to reduce its patent backlog and pendency—while
meeting the requirements of the 2011 American Invents Act (AIA)—USPTO must ensure that
the quality of its patent examination process is not adversely affected and to avoid requiring
applicants and the public to file unnecessary and costly challenges to examiners’ decisions.

Since we issued the FY 2014 TMC report in November 2013, the new application backlog has
increased to 604,700 (as of February 2014). The patent appeals backlog—which we reported
on in our 2012 audit9—has begun to slowly decrease and, as of November 2013, stands at
approximately 25,000, still almost twice the size of the backlog in October 2010.

However, USPTO’s backlog for requests for continued examination (RCE) has experienced the
most variability, growing from 17,800 applications in October 2009 to approximately 78,000 in
September 2013, an increase of more than 340 percent. As a consequence, during the same
period, the average waiting time between filing an RCE and receiving an initial decision has
grown from 2.1 to 7.8 months. From the beginning of the fiscal year until February 2014, the
RCE pendency has decreased to 6.9 months, but the RCE backlog still hovers near 80,000. (For
further details on backlogs and pendency over the last 5 full fiscal years, see table 1, next page.
Pendency statistics as of February 2014 may reflect month-to-month variations; as a result, we
cannot determine an overall trend for FY 2014.)




                                                            
9
 DOC OIG, August 10, 2012. USPTO's Other Backlog: Past Problems and Risks Ahead for the Board of Patent Appeals
and Interferences, OIG-12-032-A. Washington, DC: DOC OIG.


                                                               8

 


                 Table 1. New Application, Appeal, and RCE Backlogs and Pendencya

                                                                                 PTAB
                                             Traditional        PTAB                                     RCE
                  Patent                                                        Ex Parte
                                               Patent          Ex Parte                     RCE      First-Action
FY              Application                                                      Appeal
                                             Pendency           Appeal                     Backlog    Pendency
                 Backlog                                                       Pendency
                                             (Months)b         Backlog                                (Months)d
                                                                               (Months)c

2013               584,998                         29.1        25,308             26       78,272        7.8
2012               608,283                         32.4        26,484             23       95,200        5.9
2011               669,625                         33.7        23,963             17       63,487        4.0
2010               708,535                         35.3        17,754             12       40,939        2.4
2009               718,835                         34.6        12,489            7.7       14,620        2.0
Source: USPTO

a
  Green arrow indicates period of sustained decreasing backlog; red arrows indicate period of sustained increasing 

backlog or pendency. 

b
  Average number of months between an application’s filing and its disposal.

c
  Average number of months between PTAB assigning an appeal number and its making a decision. 

d
  Average number of months between the filing of an RCE and the examiner’s initial decision.


The goal of AIA is to allow USPTO to process patent applications faster, reduce the patent
backlog, increase patent quality through expedited patent challenges, and improve examiner
recruitment and retention. AIA includes fundamental revisions to patent laws and USPTO
practices, such as moving to a “first inventor to file” patent process to align the U.S. system
with others worldwide, granting the agency authority to set and retain fees to ensure it has
sufficient resources for its operations, and establishing satellite offices. The law also introduced
new avenues for the public to challenge granted patents and replace previous options deemed
inefficient. In September 2013, OIG issued a report10 on the status of USPTO’s efforts to
implement the provisions of AIA and found that most were successfully implemented. As of
March 26, 2014—more than 2 years since AIA’s enactment—USPTO successfully implemented
29 of the 35 provisions they were responsible for on-time; 4 are not yet due, and 2 are
overdue.

Ongoing OIG Work
Modernizing IT and managing high-risk contracts at USPTO. As part of our FY 2014 work
plan, we are auditing USPTO’s IT modernization projects. Our audit objectives are to
       	 Assess the impact of IT contract termination decisions made as a result of the $110
          million IT budget reduction, as well as the appropriateness of project funding in the
          reduced budget environment.



                                                            
10
  DOC OIG, September 30, 2013. USPTO Successfully Implemented Most Provisions of the America Invents Act,
but Several Challenges Remain, OIG-13-032-A. Washington, DC: DOC OIG.


                                                                          9

 


       	 Review the progress USPTO has made in implementing the recommendations from
          OIG’s FY 2011 Patent End-to-End (PE2E) audit11—specifically, the technical progress it
          has achieved to date, its use of the Agile methodology, and its plans for future PE2E
          development.
       	 Assess the project management and technical progress USPTO has made in its
          development and implementation of the Trademark Next Generation project, including
          its use of the Agile methodology.

Examining USPTO use of high-risk contracts. We have also initiated an audit of USPTO’s
management of T&M/LH contracts, which constitute high risk to the government.12 In FY 2013,
USPTO obligated approximately $572 million on contracts for goods and services; our
objective is to determine whether its T&M/LH contracts are properly awarded and
administered.

Ongoing OIG Investigation
We are looking into the work activities of paralegals in USPTO’s Patent Trial and Appeals
Board (PTAB), many of whom were brought on board in anticipation of the hiring of additional
administrative law judges. In 2008, USPTO had planned to significantly increase the number of
judges in PTAB, in order to help reduce the backlog of appeals being reviewed by the Board.
According to USPTO, due to budget reasons, judges were not hired according to plan; in 2013,
OIG received a whistleblower complaint alleging that paralegals were not being assigned an
adequate workload to occupy a full-time schedule. We referred this matter to USPTO
management, which conducted an administrative inquiry and found that—over the 4.5 years
from October 2008 to May 2013—approximately $4 million dollars was billed to
nonproduction time. After completion of USPTO’s inquiry, we subsequently initiated a follow-
up analysis and expect to release a public report this later in 2014.

For further details, see Appendix D, “Reducing USPTO Backlogs and Other USPTO Issues.”  


Managing the Department’s Finances, Contracts, Grants,
and Operations
Department-Wide Oversight
Challenges to the Department’s operational excellence include controls over budgetary
resources, procurement, and overall financial management. Departmental leadership is
addressing a number of related issues, including (A) the management of appropriated funds, (B)
the Department’s and bureaus’ unliquidated obligations, (C) funds spent on conferences, (D)
                                                            
11
   DOC OIG, September 29, 2011. Patent End-to-End Planning and Oversight Need to Be Strengthened to Reduce
Development Risk, OIG-11-033-A. Washington, DC: DOC OIG.
12
   This audit is part of our risk-based oversight strategy developed to help the Department address management
challenges in its acquisition function; for more on high-risk contracts, see “Incurring risk from the use of high-risk
contracts” in the “Managing the Department’s Finances, Contracts, Grants, and Operations” section of this
testimony.


                                                               10

 


funds spent on premium class travel, (E) modernizing the enterprise financial management
system, (F) the Department’s working capital fund, and (G) other obligations, including
contracts and grants.

A. Addressing the unauthorized reprogramming of funds. In response to hotline complaints
about mismanagement of appropriated funds within NOAA’s National Weather Service (NWS)
in 2010 and 2011, the Department conducted a review that highlighted mismanagement of
budgetary resources throughout NWS. The Department found significant management,
leadership, budget, and financial control problems at NWS. Following the release of the report
on its review, the Department identified specific actions for correcting the conditions that led
to the report’s findings. The Department also reported related Antideficiency Act violations.

In our September 2013 review13 of these actions, we found that the Department and NOAA
have taken steps to address the findings identified in the Department’s internal inquiry and
completed many action items, but that additional work was needed to complete several key
action plan items to ensure proper stewardship of funds and compliance with laws and
regulations. Although several actions needed to be finalized or added, the Department has
made progress in addressing most of the original action items related to these budget issues. In
addition to its existing action plan items, we specifically recommended that the Department
document an analysis of NOAA’s financial management leadership that addresses improper past
practices and how the current leadership team can provide effective financial management
direction. Continued Departmental leadership attention is essential to ensuring a culture of
transparency, accountability, and effective oversight.

B. Monitoring the Department’s obligation balances. Our June 2013 report14 on the
Department’s controls over the management and closeout of obligation balances as of
December 31, 2011, found inconsistent policies and processes, as well as inadequate monitoring
activities. Specifically, we found original obligation balances that could not be verified,
accounting records that did not accurately reflect Department obligations, bureaus that did not
know the status of its obligations, and improperly liquidated contract obligations.

As a result of our work, we estimated that the amount of unliquidated obligation balances that
the Department needed to deobligate was $159 million as of December 31, 2011. The
Department did not have adequate internal controls, policies, and procedures to ensure that
bureau obligations were adequately monitored and deobligated when appropriate. To address
these challenges, the Department’s financial management and acquisitions units agreed to (1)
issue joint final guidance on monitoring open obligations to their respective communities and
(2) include routine obligation monitoring as a discussion topic during annual finance and
acquisition training sessions. The guidance has not yet been finalized.




                                                            
13
   DOC OIG, September 13, 2013. Status of Departmental Actions to Correct National Weather Service Mismanagement
of Funds, OIG-13-029-I. Washington, DC: DOC OIG.

14
   DOC OIG, June 20, 2013. Monitoring of Department's Obligation Balances Needs Strengthening, OIG-13-026-A. 

Washington, DC: DOC OIG.



                                                               11

 


C. Overseeing conference spending. Since FY 2012, the Department has developed and
updated conference-related guidelines. These guidelines pertain to events that either require
Office of the Secretary pre‐approval or entail the Department or one of its bureaus to
represent itself publicly as a host or co‐host. The Department must continue to be transparent
and responsive in its efforts to avoid conference mismanagement or missteps similar to those
resulting in our recent audit report covering conferences hosted by NIST’s Manufacturing
Extension Partnership (MEP) program.

In response to a Congressional request, we audited NIST-MEP conference spending to develop
a reasonable cost estimate of the 2012 NIST-MEP annual conference held in Orlando and
determine the legitimacy and reasonableness of travel costs for major conferences in FYs 2011
and 2012.15 OIG found that, for conferences held in FYs 2011 and 2012, NIST-MEP lacked
adequate controls over much of its conference spending. We concluded that a NIST-MEP event
planner retained concessions and benefits that could have been used to reduce the FY 2012
conference’s $1.1 million cost—$700,000 of which was spent by NIST-MEP. We recommended
that NIST-MEP make a determination on the recovery of $148,000 that its event planner
collected for sponsorship fees and more than $88,000 that the planner retained for both
registration fees and a concession refund. Similarly, an evening reception, paid for with funds
raised through the sale of sponsorships at the same conference, was held in lieu of reducing the
overall cost. Further, NIST-MEP agreed to room rates for government attendees that exceeded
allowable maximum conference lodging rates in order to standardize rates for government and
nongovernment attendees, essentially subsidizing lodging costs to nongovernment attendees.

D. Overseeing premium travel spending. We recently examined FY 2012 information on the
Department’s total premium-class travel approved for flight time in excess of 14 hours, as well
as for medical disability, which totaled nearly $1.4 million. The difference in cost between
premium and coach fares for travel due to flight time in excess of 14 hours was approximately
$540,000, while the cost difference due to medical disability was approximately $475,000. With
the serious fiscal challenges requiring federal Departments to operate as efficiently as possible,
we advised the Department to (1) collect, analyze, and report data on premium-class travel on
a periodic basis to the Office of Commerce Services and (2) examine ways to reduce premium
travel costs. Additional OIG work in this area of the Department’s operations will focus on
premium-class travel, specifically on the effectiveness of controls over approving exceptions to
premium-class travel restrictions.

E. Updating the enterprise financial management system. The financial control problems at
NWS highlight the Department’s need to implement stricter control over funds Department-
wide. A lack of centralized data systems poses reporting and oversight challenges to the
Department, such as effectively reporting financial data and monitoring financial activity across
its bureaus.

The Department and most of its bureaus use a financial system developed with aging technology
and augmented with in-house software that is increasingly difficult to maintain. This system
currently addresses core financial accounting, financial management, grants management,
                                                            
15
 DOC OIG, February 21, 2014. Manufacturing Extension Partnership Incurred Avoidable Conference Costs,
OIG-14-013-A. Washington, DC: DOC OIG.


                                                               12

 


acquisition management, and property management. However, limitations such as high support
costs and a lack of system integration and lack of centralized reporting capability impede the
Department’s ability to oversee and manage Department-wide financial activities.

The Department plans to replace these legacy systems—collectively known as the Commerce
Business System (CBS)—with Business Application Solutions (BAS), a commercially available
system, by FY 2018. The Department requested nearly $40 million to support BAS
implementation activities in FY 2015. While the Department has provided OIG with regular
updates on the status of this modernization project, significant challenges remain because
(1) the implementation schedule is aggressive; (2) the Census Bureau must be successfully
converted prior to the 2020 decennial; (3) BAS will be hosted by a shared-service provider;
(4) separate component systems will need to interface with BAS; and (5) adequate funding is
needed.

F. Managing the working capital fund. On March 28, 2014, we issued a draft report covering
billing control issues related to the Office of the Secretary’s working capital fund (WCF). This
fund provides 62 services throughout the Department valued at nearly $150 million annually.
Our audit addressed issues on whether the Office of the Secretary’s Financial Management
Directorate charged customers using the correct billing rates and in accordance with
Departmental guidelines. For 10 of the projects reviewed, we found that the Office of the
Secretary Financial Management Directorate did not use current billing rates and/or the service
providers did not have accurate supporting documentation for amounts charged to the
customers. This problem was most noteworthy within the Office of General Counsel.
Consequently, the customers receiving services from these projects were not billed correctly.
We recommended that the Department require a process for all WCF service providers to
capture and retain supporting documentation that accurately reflects the level of services
provided to customers, and that the Office General Counsel develop an automated process to
track attorney time, by customer and services provided. We provided the Department with
our draft results and will issue our final report later in 2014.

G. Administering high-risk contracts and grant awards. In FY 2013, the Department
obligated about $2.3 billion for goods and services that include satellite acquisitions, intellectual
property protection, broadband technology opportunities, management of coastal and ocean
resources, information technology, and construction and facilities management. Although the
Department’s spending requirements for goods and services have not diminished, available
funding resources likely will remain uncertain. For this reason, the Department must maintain
the workforce needed to carry out robust and thorough oversight of contracts to help
program management achieve goals, avoid significant overcharges, and curb wasteful spending.16
Continuing to address high-risk contracts and maintaining a qualified acquisition workforce will
enable better management of the Department’s day-to-day spending. 

OIG also provides oversight of the Department’s management of more than 70 programs
authorized to award grants or cooperative agreements. Each program has its own rules,
                                                            
16
  The President has acknowledged contract oversight as a federal government-wide priority; see The White
House, Office of the Press Secretary, March 4, 2009, Memorandum for the Heads of Executive Departments and
Agencies: Government Contracting.


                                                               13

 


regulations, and eligibility requirements. In addition, OIG provides oversight to the National
Telecommunications and Information Administration’s management of the Department’s most
significant grant-awarding initiative over the last 5 years, the Broadband Technology
Opportunities Program (BTOP). Of the Department’s grants programs, BTOP entails the most
challenging awardee spending issues.

Incurring risk from the use of high-risk contracts. In July 2009, the Office of Management and
Budget’s (OMB’s) Office of Federal Procurement Policy issued contracting guidance to chief
acquisition officers and senior procurement executives. The guidance—stating that time and
materials/labor hour (T&M/LH) contracts, cost-reimbursement contracts, and noncompetitive
contracting pose special risks of overspending—directed agencies to reduce by at least 10
percent the use of high-risk contracting authorities for new contract actions. For FY 2013, the
Department reported that it exceeded its goals in reducing the dollar amount of high-risk
contracts, and it continues to track its goal based on OMB’s 2009 guidance. However, our audit
results indicate that a critical challenge remains in the use of high-risk contracts.

In a report issued in November 2013,17 we reported weaknesses in the awarding and
administering of T&M/LH contracts. We found that Departmental contracting officers did not
award T&M/LH contract actions in accordance with the requirements of the Federal
Acquisition Regulation and the Commerce Acquisition Manual. T&M/LH contracts are considered
high-risk because the contractor’s profit is tied to the number of hours worked. We also noted
that contract actions in our sample were incorrectly coded in the Federal Procurement Data
System (FPDS).

The Department’s challenge is to better monitor and evaluate its T&M/LH contracts through
the acquisition review board and investment review board processes, which are used to
manage the Department’s major acquisitions of goods and services. A further challenge it faces
is to improve the processes for entering accurate and complete data in FPDS. Effective
implementation of the Department’s measures will be crucial to ensuring that the Department
properly awards, administers, and reports high-risk T&M/LH contracts.

Tightening controls over use of federal funds by award recipients. Grant oversight requires that
recipients of awards meeting certain dollar thresholds submit either a Circular A-133 single
audit report or a program-specific audit report. For the period January 1, 2011–December 31,
2013, these programs issued approximately 4,166 awards amounting to $3.8 billion. We review
an average of 350 finding reports a year; of those, about 8 percent will have significant
procedural or internal control findings. These types of awards pose particular oversight
challenges for the Department. OIG continues to review these audit reports to identify trends
in findings across bureau programs, as well as to monitor whether findings are resolved in a
timely manner. Twice annually, we provide the Department an analysis of our review’s results
and post it on our Web site.

Table 2 presents averages of the single audit and program-specific audit reports that OIG
reviewed during the period January 1, 2011–December 31, 2013, the number of material
                                                            
17
  DOC OIG, November 8, 2013. The Department’s Awarding and Administering of Time-and-Materials and Labor-Hours
Contracts Needs Improvements, OIG-14-001-A. Washington, DC: OIG.


                                                               14

 


findings, and amounts of questioned costs and funds to be put to better use reported. We have
noted a problematic indicator in the Economic Development Administration’s (EDA’s) revolving
loan fund program, NTIA’s BTOP, and the National Institute of Standards and Technology’s
(NIST’s) Advanced Technology/Technology Innovation Program. It is important that all
Departmental program and grants management offices review these findings and implement
internal controls to address the root causes of the findings, which may require program or
grant operations changes in order to improve grant recipients’ compliance with laws and
regulations.

        Table 2. Analysis, by Bureau, of OIG-Reviewed Single Audit Reports: 

        Annual Average (from January 1, 2011, Through December 31, 2013)a


                                          Reports
                                                                                        Funds Put
                            Reports         with        Material      Questioned
             Bureau                                                                     to Better
                           Reviewed       Material      Findings        Costsc
                                                                                          Used
                                          Findingsb

             EDA                 103               8            23           1,288           1,990 
             NOAA                 45               4            14           2,277               0 
             NTIA                 52               6            22           2,363               0 
             NIST                 78              11            25           1,057              96 
             Othere               72               0             0               0               0 
              TOTAL              350              29            84           6,985           2,086 
            Source: OIG
            a
              The table does not include less significant procedural or internal control findings, the
            resolution of which OIG does not monitor; b material findings are those with
            questioned costs greater than or equal to $10,000 and/or significant nonfinancial
            findings; c questioned costs, shown here in thousands of dollars, are subject to change
            during the audit resolution/appeal process; d funds to be put to better use, shown here
            in thousands of dollars, are subject to change during the audit resolution/appeal
            processes; e other includes the International Trade Administration (ITA), the Minority
            Business Development Agency (MBDA), and multiple, which are single audit reviewed
            programs from more than one bureau.

To improve controls over award recipients’ use of federal funds, bureaus need to review these
single audit and program-specific audit reports and take action on the report findings.
Ongoing OIG investigation into NOAA grants. As a result of a whistleblower’s disclosures to OIG,
we are currently looking into grants issued by NOAA to nine National Estuarine Research
Reserve System (NERRS) facilities for approximately $1 million. In January 2013, Congress
appropriated $7 million to NOAA “to repair and replace ocean observing and coastal
monitoring assets damaged by Hurricane Sandy.” The whistleblower, whose identity is being
protected by OIG, alleged that a NERRS facility applied for and was awarded grant funds even
though their equipment was not damaged by Hurricane Sandy, as required under the law. Our
public report will be released in 2014.




                                                        15

 


Agency Oversight
Managing Broadband Technology Opportunities Program (BTOP) award closeouts. With
approximately $3.9 billion in grant awards, the Recovery Act-funded BTOP represents the
Department’s largest grant program over the last 5 years. Of the Department’s grants
programs, BTOP entails the most challenging awardee spending issues. 

As of March 17, 2014, about 15 percent of BTOP funds remain to be disbursed—and only 21 of
224 projects had been closed, with another 174 in the closeout process and 29 (representing
about $900 million in awards) remaining active. Some of these awards have been extended to
September 30, 2015. Management must remain committed to monitoring BTOP recipient
compliance with grant award terms and achievement of intended benefits as the program nears
completion.

Addressing concerns with BTOP grants’ closeout process. The audit closeout process18 calls for
particular attention. OIG’s December 20, 2013, report19 identified that BTOP’s award closeout
process (a) is taking longer than expected, particularly with infrastructure projects and (b)
could be improved by strengthening closeout policies and procedures and ensuring the
consistent implementation of those policies and procedures in place. NTIA and the grants
offices (NOAA and NIST) supporting NTIA in the implementation of BTOP have taken or are
in the process of taking to strengthen the closeout process.
Answering Congressional questions about a BTOP awardee. Recently completed and ongoing audit
work has indicated the need for continued management attention to awards that remain open
and significant issues that they entail. On May 9, 2013, we received a request from the House
to review a $100.6 million grant that BTOP awarded to EAGLE-Net Alliance (ENA). In
responding to questions relating to the grant in a January 23, 2014, letter, our review found that
the revised project will involve additional miles of constructed and leased fiber, with some of
the completed fiber being laid in proximity to existing fiber. In addition, we found that two-
thirds of the grant funds had been spent before NTIA addressed problems that led to
suspension of the award in December 2012. Further, ENA faces challenges that include the
project’s ability to fully achieve the award’s intended results (e.g., connections will be achieved
with only 131 of 223 intended community institutions) and continued internal control issues.
Examining issues with BTOP equipment acquisitions. Previous OIG oversight identified BTOP
equipment (e.g., fiber, base tower stations, switches, microwave radio equipment) as a concern.
As a result, we initiated a review with objectives to determine whether NTIA has the personnel
and processes in place to monitor grantees’ equipment acquisitions and assess whether
grantees have appropriately acquired, tested and implemented the most effective equipment. As
part of this review, we performed site visits of six recipients of BTOP awards for deploying
broadband. On March 24, 2014, we issued a draft report to NTIA that credits the agency with
establishing processes to monitor recipient’s implementation of awards—but identifies
                                                            
18
   This process entails the award recipient and the grants office ensuring that project activity is complete and the
award recipient has met all the requirements under applicable laws, regulations, OMB circulars, and award terms
and conditions.
19
   DOC OIG, December 20, 2013. Closeout Procedures for the Broadband Technology Opportunities Program Need
Strengthening, OIG-14-010-A. Washington, DC: OIG.


                                                               16

 


weaknesses in grantee acquisition and implementation of equipment and recommends steps to
improve NTIA’s oversight controls.

Supporting International Trade Administration (ITA) export programs under a new
organizational structure. Promotion of U.S. exports is a critical mission of the Department.
For FY 2015, the Department has requested $497 million to support export promotion and
regulation. ITA’s U.S. and Foreign Commercial Service, within the Global Markets business unit,
provides a broad range of services and counseling to U.S. exporters; other ITA business units—
such as Enforcement and Compliance, as well as Industry and Analysis—enforce trade
agreements and protect domestic industries such as manufacturing and textiles.

ITA’s challenge is to complete its internal reorganization. Effective October 1, 2013, the
Department consolidated ITA’s four existing business units into three to eliminate overlapping
functions and streamline operations. ITA states that the functional realignment will consolidate
regional expertise, strengthen industry expertise and strategic partnerships, and consolidate
trade agreement compliance and trade law enforcement. In February 2014, we initiated an audit
of ITA’s consolidation to evaluate its progress, assess whether any cost savings have been
realized, and identify any remaining challenges to this effort.

Reforming Bureau of Industry and Security (BIS) export control. The United States’ export
control system is distributed among several different licensing and enforcement agencies.
Within the Department of Commerce, the Bureau of Industry and Security (BIS) administers
and enforces the Export Administration Regulations, which apply to controlled dual-use items
and technology. These regulations serve to support and advance the national security, foreign
policy, nonproliferation, and short supply interests of the United States. BIS’ two primary
functions, licensing and enforcement, are handled by Export Administration and Export
Enforcement, respectively.

The Export Control Reform (ECR) Initiative, launched in April 2010, is a three-phase effort to
streamline the nation’s export control system by consolidating the export control efforts of
multiple federal agencies. As part of the export control reform, BIS has begun assuming
increased licensing and enforcement responsibilities for former munitions items that have
moved under Department of Commerce jurisdiction. The challenge for BIS will be to ensure
that it has adequate licensing and enforcement resources to handle its new responsibilities.

In May 2013 we initiated an audit in response to a Congressional request and as part of our
annual audit plan. Our objectives were to (1) review the adequacy of BIS’ program plans and
budget requests to address the increased workloads for licensing, outreach, and enforcement
activities in FYs 2014 through 2016 and (2) evaluate existing BIS licensing, outreach, and
enforcement activities and identify any areas for increased efficiencies. We focused our analysis
on areas of BIS most affected by ECR—namely its licensing divisions, outreach office, and
enforcement offices (excluding antiboycott compliance).

On March 19, 2014, as a result of our fieldwork—and in response to a whistleblower
complaint—we issued a memorandum to the BIS Under Secretary and the Department of
Commerce’s Chief Information Officer expressing our concerns with BIS’ compliance with the
Presidential directive to consolidate its export licensing system with the Department of


                                                17

 


Defense’s U.S. Export Systems (USXPORTS) automation initiative. The Department of
Commerce, in response to our memorandum, scheduled a May 1, 2014, Commerce IT Review
Board meeting to discuss the status of BIS migration.

Addressing issues with NOAA satellite accounting. Over the past 3 fiscal years, the
accounting firm KPMG noted several significant control weaknesses at NOAA related to
accounting for satellites. Specifically, KPMG identified that NOAA in FY 2013 incorrectly
classified a satellite instrument not operational at year end as completed property. This error
resulted in a $125 million adjustment to correct property values originally recorded by NOAA.
In addition, NOAA capitalized all costs associated with JPSS without review to ensure that only
capitalizable costs are included in construction work-in-progress. Further, KPMG identified that
NOAA did not receive and review the supporting documentation for $182.6 million in costs
included in intragovernmental payments.

Managing NOAA real property leases. Senate Appropriations Committee Report 113-078,
related to the FY 2014 budget, stated that NOAA (a) has a large inventory of real property
commercial leases being held over beyond their agreed occupancy and (b) had hundreds of real
property leases expiring over the next 4 years that will likely go into holdover, unless NOAA
took action. Regarding these issues, we collected information on over 2,500 real property
leases from NOAA’s inventory valued at over $166 million. As of February 2014, NOAA had
122 properties with nearly $2 million in annual rent in holdover status. This represents a 31
percent reduction from the 177 lease holdovers NOAA reported in August 2012. NOAA must
continue to address each of its existing holdover leases—and look ahead to those about to
expire to ensure that these numbers do not rise.


Strengthening First Responder Network Authority (FirstNet)
to Support Economic Growth  
Overseeing the First Responder Network Authority and the Implementation of the
Nationwide Public Safety Broadband Network
The Middle Class Tax Relief and Job Creation Act (The Act), signed by the President on
February 22, 2012, included language that allocated some existing public safety radio frequency
spectrum—along with the “D-Block” spectrum—and authorized $7 billion in funding for the
establishment of an interoperable Nationwide Public Safety Broadband Network (NPSBN). To
oversee the existing public-safety spectrum and deployment of the NPSBN, the law requires the
establishment of an independent authority within NTIA called First Responder Network
Authority (FirstNet).

FirstNet faces several challenges as it works toward providing emergency responders with a
high-speed network dedicated to public safety. The initial challenge to FirstNet is establishing an
organizational structure with strong internal controls. Building an effective organization will be
essential to meet the subsequent challenges it faces in establishing the NPSBN. Those include:

Fostering cooperation among various state and local public safety agencies. Committing
iterative effort to effective outreach and forging cooperation will be essential to building the


                                                18

 


NPSBN and obtaining participation from the public safety personnel the network is designed to
serve.
Integrating existing BTOP grants into the NPSBN. FirstNet should use four previously
funded BTOP public safety wireless projects20 as an opportunity to learn about
telecommunications network equipment, best practices for NPSBN deployment, and other
issues.
Creating a nationwide long-term evolution network. The limited funds available to
implement a nationwide network that meets public safety grade standards will make
implementation of NPSBN a challenge, particularly in geographic areas that are not profitable
for commercial provider operations. To ensure a cost-effective NPSBN implementation,
FirstNet must identify existing assets through coordination efforts.

FirstNet held its first meeting in September 2012 and has since made certain key hires;
established a headquarters in the Washington, DC, area; and awarded three contracts for
technical support and one contract for general program management and acquisition support.

Ongoing FirstNet Oversight
In October 2013, the FirstNet board requested that OIG take over the review of certain
allegations concerning the board’s procurements and potential conflicts of interest. We initiated
an audit in November 2013 with the objectives of assessing (I) the rationale used to support the
decision for selecting time and material and sole-source contract types for the three contracts
with a total ceiling price of $14,350,000; (2) whether those contracts were fairly awarded and
appropriately administered; (3) whether the services purchased under those contracts met
industry standards, and were consistent with the needs of the project; and (4) FirstNet’s
process of reviewing ethics-related matters as they pertain to the board, as well as any
associated ethical determinations. We expect to issue our report later in 2014. We are also
following up on any specific issues relating to our audit.

The subcommittee should be aware that, since FirstNet is not funded through appropriations,
the Department, responding to OIG’s request, agreed that OIG would submit a request to
FirstNet for oversight funding, which we did in September 2013. While we are yet to receive
any funding—and the details of the transfer have not been finalized—we now understand that
FirstNet intends to transfer funding sufficient for 3 full-time equivalents to OIG for the balance
of FY 2014. Without funding in First Net’s authorizing legislation, OIG will be required to make
annual requests for funding from FirstNet.




                                                            
20
  Before the creation of FirstNet, NTIA made approximately $382 million in grant awards to seven public safety
projects to deploy public safety wireless broadband networks. On May 11, 2012, NTIA partially suspended these
seven public safety projects. Subsequent negotiations were held to determine whether they would be beneficial to
FirstNet; as a result, FirstNet established spectrum lease agreements with four of the seven public safety BTOP
projects.


                                                               19

 


Resolving Ethics and Compliance Issues Raised
by Whistleblowers
Over the past year, the Department has made progress in dealing with issues raised by
whistleblowers over OIG’s hotline. In addition to allegations of fraud and serious misconduct
which we investigate, OIG often receives complaints from employees and members of the
public raising ethics, compliance, or management issues; we provide these complaints to
operating unit leadership to address and resolve. This program ensures that information about
potential risks received over our hotline is communicated promptly to operating unit
management, so that they may quickly address problems. In some cases, OIG asks that
operating units respond and summarize their findings, to ensure that management has
sufficiently addressed the matter.

In FY 2013, OIG received almost 1,300 contacts over our hotline, of which about 600 were
whistleblower complaints related to the Department’s programs and operations. Since the
beginning of FY 2013, operating units have worked effectively to resolve issues provided to
them on OIG hotline complaints, reducing by more than half what had become a major backlog
in early FY 2013. As of the end of the second quarter of FY 2014, the Department had only 40
hotline complaints for which OIG was awaiting an initial findings report—compared to 98
pending only 1 year prior (see figure 2).

         Figure 2. Complaint Referrals to Bureaus Awaiting Initial Response
               120


               100


                80

                                                                                 Total pending hotline

                                                                                 complaint referrals

                60

                                                                                 Referrals older than 60 days
                40                                                               without a response to OIG at
                                                                                 end of reporting period


                20


                 0

                        Q3     Q4     Q1     Q2     Q3     Q4     Q1     Q2

                      (FY12) (FY12) (FY13) (FY13) (FY13) (FY13) (FY14) (FY14)



               Source: OIG data

As a result of the Department and operating units prioritizing and addressing OIG hotline
referrals, several issues have been resolved, resulting in better management practices and
administrative remedies. In fact, of the hotline referrals resolved in FY 2013, the Department’s
leadership found about one in four contained issues that were substantiated in their
management inquiries. Even in cases where inquiries did not find issues, the process of looking
into issues often helps communicate to staff that compliance and ethics issues are taken




                                                               20

 


seriously. Examples of successfully resolved issues from OIG hotline referrals include the
following:

    	 In early FY 2013, OIG referred a whistleblower complaint to NTIA, which confirmed
       that a BTOP grantee had not paid employees appropriate wages as mandated by the
       Davis-Bacon Act. NTIA informed the grantee of the issue, and appropriate action was
       taken to remunerate employees as required by the law.

    	 In late 2011, OIG received a whistleblower’s hotline complaint alleging that a Census
       Bureau employee was publishing political opinions while on duty. Census looked into
       the issues and, with additional support from OIG, uncovered evidence demonstrating
       that the employee had used Twitter to publish political opinions while at work. In 2012,
       we referred our file to Office of Special Counsel (OSC), which has the authority to look
       into Hatch Act violations. In February 2014, OSC issued a press release announcing that
       it had confirmed the allegations, and was concluding its investigation. The employee
       resigned prior to OSC concluding its case.

    	 In mid-2013, as the result of a whistleblower tip to OIG’s hotline, USPTO confirmed
       that an employee had been improperly claiming work time and overtime while on
       vacation in a foreign country. During the course of its inquiry, USPTO discovered that
       the employee had provided username and password information to a second USPTO
       employee, who logged into his account and submitted previously-completed work while
       on leave. This gave management the impression that the employee was working while
       actually on vacation. Administrative action is pending against both.

While the Office of the Secretary and most operating units have made progress handling OIG
hotline complaints, NOAA still faces challenges in this area. Leadership needs to give more
timely attention to resolving recommendations made at the conclusion of OIG investigations
and its own management reviews. When OIG or management substantiates allegations, we
frequently transmit to program management our concluding report—which may be
accompanied by recommendations to take appropriate administrative, disciplinary, or other
policy actions. Departmental policy requires operating units to respond to OIG within 60 days
of receiving our report to inform us of any actions that have been taken or that are planned.
Improved coordination among the Department’s Office of General Counsel, operating unit
leadership, and human resources offices would help ensure that appropriate action is executed
in a timely manner.

NOAA, however, currently has five pending OIG investigations that it has yet to take adequate
action on, including two cases where senior scientists used government computers to view
inappropriate online content. Four of these five investigations were transmitted to NOAA
more than 180 days ago, including two that remain older than 1 year without any action. In
order for NOAA to comply with Departmental policies and foster a culture of management
accountability, leadership must more diligently resolve OIG’s investigative recommendations.




                                               21

 


Appendix A: Addressing Issues with NOAA Weather Satellite
Programs
Managing risks in the acquisition and development of the next generation of environmental
satellites is a continuing challenge for the Department. In February 2013, GAO added
“Mitigating Gaps in Weather Satellite Data” to its high-risk list.21 The two most prominent
programs,22 the Joint Polar Satellite System (JPSS) and the Geostationary Operational
Environmental Satellite-R Series (GOES-R), together account for one-third of NOAA’s FY 2015
budget request. They are also the largest investments in the Department, accounting for more
than 20 percent of the Department’s $8.8 billion budget proposal.

NOAA’s JPSS and GOES-R satellites will provide data and imagery for weather forecasting—
including severe-storm tracking and alerting—and the study of climate change—and help lead
and sustain the nation during severe weather events. However, because of cost overruns,
schedule delays, and the aging of NOAA’s current constellation of satellites, NOAA has had to
take steps to mitigate potential coverage gaps for these critical assets.

JPSS evolved from a predecessor program fraught with cost overruns and schedule delays.
NOAA’s JPSS program uses the National Aeronautics and Space Administration (NASA) as its
acquisition agent, leveraging that agency’s procurement and systems engineering expertise—an
arrangement based on previous partnerships between the two agencies. In its FY 2015 budget
submission, NOAA requested $916.3 million and reported that the JPSS program, running
through 2025, would cost $11.3 billion. The first JPSS-developed satellite (JPSS-1) is scheduled
for launch no later than the second quarter of FY 2017. GOES-R, with scope and importance
comparable to JPSS, experienced development and budgetary challenges that could delay the
launch readiness date of its first satellite from the first to the second quarter of FY 2016.
NOAA requested $980.8 million for FY 2015 for the GOES-R series of satellites that will
provide uninterrupted short-range severe weather warning and “now-casting” capabilities
through 2036. With four satellites (the GOES-R, -S, -T, and -U), the program is estimated to
cost $10.8 billion over the course of its life cycle.

JPSS
In November 2013, NOAA’s independent review recommended that NOAA’s polar satellite
launch policy be changed so that two satellite failures must occur in order for a gap in data to
be realized. It recommended that NOAA promptly start a “gap filler” mission—likely a smaller
satellite with key instruments—to provide additional fault tolerance to the JPSS constellation.
Further, it recommended that NOAA immediately procure additional satellites to extend the
JPSS constellation beyond JPSS-2, which would protect against future gaps and make current
development more robust and efficient by providing needed spare parts and flexibility in
fabrication and testing.
                                                            
21
   U.S. General Accountability Office, February 2013. High-Risk Series: An Update, GAO-13-283. Washington, DC:
GAO, 155-160.

22
   Other satellite acquisitions include Jason-3, which will measure sea surface height, and Deep Space Climate 

Observatory, which will provide advance warnings of solar storms affecting Earth. 



                                                               22

 


NOAA has begun to mitigate potential degradation to weather forecasting capabilities during
polar-orbit data coverage gaps through the use of supplemental funding it received as part of
the Disaster Relief Appropriations Act, 2013. NOAA should ensure that its gap mitigation plan
is executed before the November 2016 design-life end of Suomi National Polar-orbiting
Partnership (NPP), a risk-reduction satellite launched in October 2011 that is flying the first
versions of JPSS sensors.

Consistent with our September 2012 JPSS audit report,23 we continue to project a potential
10–16-month gap between Suomi NPP’s end of design life and when JPSS-1 satellite data
become available for operational use (see figure A-1). NOAA’s medium-range weather
forecasting (3–7 days) could be degraded during the period of time JPSS data are unavailable.

                      Figure A-1. NOAA Afternoon-orbit Polar Satellite Constellation
                                     with Potential Continuity Gap




     Source: OIG analysis of NOAA data

 



                                                            
23
  U.S. Department of Commerce Office of Inspector General, September 27, 2012. Audit of the Joint Polar Satellite
System: Continuing Progress in Establishing Capabilities, Schedules, and Costs Is Needed to Mitigate Data Gaps, OIG-12-
038-A. Washington, DC: Department of Commerce OIG.


                                                               23

 


GOES-R
NOAA’s policy for its geostationary satellites is to have three satellites in orbit—two
operational satellites with overlapping coverage and one spare for backup. Currently, GOES-13,
GOES-14, and GOES-15 are in orbit (see figure A-2). However, GOES-13 is due to be retired
in FY 2015, at which time GOES-14 is projected to become operational. GOES-15 is due to be
retired in FY 2017. GOES-R is scheduled to be launched in October 2015, but there is a risk of
launch delay. NOAA may not be able to meet its policy of having an on-orbit spare, even
without a GOES-R launch delay, based on current GOES satellites’ projected retirement dates.
Furthermore, a launch delay for GOES-R beyond October 2015 increases the risk that only one
geostationary imager will be in orbit—which would severely limit NOAA’s capability to visualize
and track severe weather events.

       Figure A-2. Potential Policy Gaps for Geostationary Operational Satellites




    Source: OIG analysis of NOAA data




                                              24

 


Appendix B: Managing the Census Bureau’s 2020 Decennial
Planning
2020 Decennial
Through our ongoing work on the Census Bureau’s approach to and progress on planning for
2020 decennial census we have identified three time-sensitive Bureau management priorities:
      	 Completing timely research for making evidence-based design decisions
      	 Integrating schedule and budget to provide valid, timely, accurate, and auditable 

         performance information on which to base project management decisions 

      	 Accurately recording costs in the accounting system

Completing timely research for making evidence-based design decisions. To reduce 2020
Census costs, the Bureau is conducting research that focuses on several design features.
Conducting research and testing is necessary to implement the changes needed to save the
government hundreds of millions of dollars (see table B-1).

                           Table B-1. Costly 2010 Census Operations and
                              2020 Research Efforts to Address Them

     2010 Census Cost and Operation                    2020 Research Aimed to Reduce Costs
                                                       Can the number of household visits be reduced by finding
                   Enumerating nonresponding           an alternative, less costly response option?
     $2 billion
                   households                          Can existing government records fill in missing
                                                       information?

     $790          Building a one-time-use field
                                                       Can reusable enterprise-wide solutions be built and
                   data collection automation
     million                                           expanded to meet decennial needs?
                   system

                   Ensuring that labor, systems, and   Can the number of paper questionnaires be reduced
                   development are in place to         through an Internet response option?
     $473          process and capture the data for    Can an automated field data collection reduce the paper
     million       more than 164 million paper         workload?
                   questionnaires at three data        Can the reduced paper workload result in fewer data
                   centers                             capture centers?
                                                       Can Census maps and addresses be efficiently updated
     $444          Having an end-of-decade
                                                       throughout the decade, with areas experiencing change
                   address and geography updating
     million                                           accurately targeted to reduce the amount of end-of-
                   operation
                                                       decade canvassing?

     $330                                              Can distance management, training, and automated
                   Leasing 494 local and 12 regional
                                                       processes allow the Census Bureau to reduce the number
     million       Census offices
                                                       of temporary Census offices?
    Source: OIG analysis of Census Bureau documents




                                                       25
 


Integrating schedule and budget to provide valid, timely, accurate, and auditable
performance information on which to base project management decisions. Last decade,
OIG recommended that the Census Bureau integrate cost and schedule. In response, the
Bureau planned to incorporate earned value management (EVM), a process that combines
measures of a project’s schedule and cost to forecast performance problems. As of March
2014, the Bureau had not incorporated EVM into its activity schedules. Because of the Bureau’s
budget and time constraints, management must be able to recognize at-risk projects by
adopting EVM to make sound project management decisions.

Accurately recording costs in the accounting system. To effectively manage a program of
the size, complexity, and cost of the 2020 Census—and assess the return on investment of
research efforts—managers require accurate accounting records. However, we recently found
that many Census Bureau staff stated that they are charging to projects based on budgeted
hours rather than actual hours worked. Inadequate accounting for an employee’s actual work
and level of effort required in accomplishing project goals, as well as inaccurate project costs,
hinder the Bureau’s ability to assess the return on investment of research efforts. Additionally,
these issues affect the Bureau’s ability to make informed decisions about how to accomplish
budget reductions.




                                                26

 


Appendix C: Enhancing Departmental Cybersecurity
Cyber Incident Response
During the past year, the Department has made improvements to incident detection and
response capabilities at DOC CIRT. For example, the Department conducted an internal
assessment of DOC CIRT policies, procedures, and capabilities. It focused on strengthening
DOC CIRT’s organizational structure; its roles and responsibilities; and operating unit
procedures for incident identification, analysis, response, and reporting. The Department’s
chief information officer has also (a) taken steps to ensure that all DOC CIRT staff meet
Department training and certification requirements and (b) implemented an incident tracking
system. In addition, the Department arranged to have the Department of Homeland Security
conduct an independent assessment, focusing on incident management capabilities within the
Department of Commerce.

Enterprise Cybersecurity Initiatives
Table C-1, below, provides the goal, along with updated implementation status and issues, for
each initiative since we issued the FY 2014 TMC report:

                      Table C-1. Department’s Enterprise Cybersecurity Initiatives
    Enterprise
                        Initiative Goal                 Implementation Status                             Issues
    Initiatives
                                                      Initial capability has been
                                                       implemented on more than 32,000
                  Provide nearly real-time             system components (e.g.,
                  security status, support for         desktops, laptops, and servers)         Delays in implementation by
                  patch management, and                across HCHB operating units.            several bureaus may result
ECMO              remediation of software
                                                      Upon full deployment in                 in missing the September
                  configuration issues for
                                                       September 2014, ECMO will               2014 deadline.
                  Department-wide system
                  components                           support more than 100,000
                                                       system components throughout
                                                       the Department.
                                                   Currently in the planning stage, the
                                                   Department has
                                                      Completed detailed assessments
                                                       of incident handling capabilities in
                                                       HCHB and NOAA, and a high-
                  Provide Department-wide              level assessment across the
                                                       Department.                             The initiative faces
                  security situational awareness
ESOC                                                                                           challenges acquiring project
                  to senior Departmental and          Concluded a technical capabilities      resources beyond FY 2015.
                  operating unit managers              study that resulted in an initial and
                                                       final operating ESOC architecture,
                                                       along with recommendations for
                                                       achieving both. 
                                                      Selected NOAA’s Fairmont, WV,
                                                       facility to house ESOC. 




                                                            27

 


    Enterprise
                                     Initiative Goal                Implementation Status                            Issues
    Initiatives
                                                                  All bureaus—except the Bureau of
                                                                   Industry and Security (BIS), the
                                                                   Census Bureau, and NOAA—have           BIS is working with its
                                                                   acquired a TIC service.                selected service provider to
                                                                  BIS will acquire TIC services by       resolve technical issues.
                          Consolidate Department                   May 2014.
                                                                                                          Census and the Department
                          external network connections            Census has not implemented TIC         of Homeland Security have
TIC                       and provide better monitoring            because of concerns about third-       developed an amendment to
                          of cyber threats from the                party access to sensitive Title 1324   a Department of Commerce
                          Internet                                 data.                                  memorandum of
                                                                  NOAA has made progress                 understanding to ensure that
                                                                   becoming its own TIC access            the confidentiality of Title 13
                                                                   provider (TICAP) by March 2015.        data is protected.
                                                                   OCIO is encouraging NOAA to
                                                                   meet TICAP requirements sooner.

Source: Department of Commerce

NOAA continues to make progress toward becoming its own TIC provider and the Census
Bureau and BIS have made notable progress toward acquiring TIC services. The TIC initiative
should significantly reduce the risks associated with external network and Internet connections.
Accordingly, the Department has encouraged NOAA to complete its TIC implementation
quickly.

 




                                                            
24
  Title 13 guarantees the confidentiality of information obtained by the Census Bureau and establishes penalties for
disclosing this information.


                                                                       28

 


Appendix D: Reducing USPTO Backlogs
Reducing Patent Application Backlogs
USPTO, as the authority for reviewing and adjudicating all patent and trademark applications,
must continue to focus on the challenge of reducing the time applicants wait before their patent
applications or appeals are reviewed. The agency’s recent efforts to address its application and
appeal backlogs and related pendency issues have yielded mixed results. Both the backlog and
pendency for patent applications decreased in FY 2013 (see figure D-1a). Between October
2009 and September 2013, the patent backlog decreased from approximately 720,000
unexamined new applications to approximately 585,000. Since we issued the FY 2014 TMC
report in November 2013, the new application backlog has increased to 604,700 (as of
February 2014). The patent appeals backlog—which we reported on in our 2012 audit25—has
begun to slowly decrease and, as of November 2013, stands at approximately 25,000, still
almost twice the size of the backlog in October 2010.

However, USPTO’s backlog for requests for continued examination (RCE) has experienced the
most variability, growing from 17,800 applications in October 2009 to approximately 78,000 in
September 2013 (see figure D-1b), an increase of more than 340 percent. As a consequence,
during the same period, the average waiting time between filing an RCE and receiving an initial
decision has grown from 2.1 to 7.8 months (see figure D-1b). From the beginning of the fiscal
year until February 2014, the RCE pendency has decreased to 6.9 months, but the RCE backlog
still hovers near 80,000. By law,26 USPTO must provide a patent term adjustment27 for an
issued patent when it takes USPTO more than 4 months to issue a preliminary RCE
determination.




                                                            
25
   U.S. Department of Commerce Office of Inspector General, August 10, 2012. USPTO's Other Backlog: Past 

Problems and Risks Ahead for the Board of Patent Appeals and Interferences, OIG-12-032-A. Washington, DC: DOC 

OIG.

26
   35 U.S.C. §154(b)(1). 

27
   A patent term adjustment legally requires USPTO to extend the 20-year patent term because of agency delays, 

subject to limitations.



                                                               29

 


                   Figures D-1a and D-1b. Patent Backlog and Pendency Decreases (a) and 

                      RCE Backlog and Pendency Increases (b) Through February 2014 

                                Figure D-1a                                                                                 Figure D-1b
              40                                                  800,000                                 9                                                         120,000

              35                                                  700,000                                 8
                                                                                                                                                                    100,000
                                                                                                          7
              30                                                  600,000
                                                                                                          6                                                         80,000
              25                                                  500,000




                                                                            Applications




                                                                                                                                                                               Applications
     Months




                                                                                                 Months
                                                                                                          5
              20                                                  400,000                                                                                           60,000
                                                                                                          4
              15                                                  300,000
                                                                                                          3                                                         40,000
              10                                                  200,000
                                                                                                          2
                                                                                                                                                                    20,000
               5                                                  100,000                                 1

               0                                                  0                                       0                                                         0



                       Patent Backlog   Patent Pendency without RCE                                           RCE Backlog    RCE Pendency from Filing to First Office Action


    Source: USPTO data

To address the substantial increases in the RCE backlog and average waiting time, USPTO
(a) initiated outreach efforts to identify why applicants file RCEs and (b) implemented policy
changes in April 2013 and October 2013. These policy changes affected the amount of credit
examiners received for reviewing RCEs, as well as the docketing procedures. Our current
audit, initiated in June 2013, examines the causes for this backlog and assesses USPTO’s efforts
to remedy it. We anticipate issuing a final report with our findings and recommendations in late
spring 2014.

As it works to reduce its patent backlog and pendency (see figure D-1a), USPTO’s challenge is
to ensure that the quality of its patent examination process is not adversely affected and to
avoid requiring applicants and the public to file unnecessary and costly challenges to examiners’
decisions.




                                                                                           30

